August 19, 2009

PRITHA MEHRA
VICE PRESIDENT, BUSINESS MAIL ENTRY AND PAYMENT TECHNOLOGIES

JOHN T. EDGAR
MANAGER, CORPORATE INFORMATION TECHNOLOGY PORTFOLIO

SUBJECT: Audit Report – Electronic Verification System Rejected Transactions
         (Report Number CRR-AR-09-006)

This report presents the results of our self-initiated audit of Electronic Verification
System (eVS) Rejected Transactions (Project Number 09RG006CRR000). Our
objective was to determine whether rejected eVS transactions are corrected and
resubmitted for processing. The Postal Accountability and Enhancement Act of 2006
requires the U.S. Postal Service Office of Inspector General (OIG) to audit the data
collection systems and procedures the U.S. Postal Service uses in its ratemaking
process. This audit addresses both operational and financial risks. See Appendix A for
additional information about this audit.

Conclusion

The Postal Service made progress in upgrading controls over eVS; xxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx. During March 2009,
the Postal Service implemented a suspense file to identify and track individually rejected
detail records.1 On June 1, 2009, management approved requirements for an interim
solution for processing files with xxxxxxxxxxxxxxxxxxxxxxx, which will notify mailers of
all rejected transactions. Management must develop requirements for the final solution
which provides an automated process for identifying and tracking all rejected
transactions to ensure mailers correct and resubmit them. In addition, programming
code errors resulted in approximately $700,000 in overcharges to mailers during
May 2009. Management corrected these overcharges, but not the underlying
programming code that caused the overcharges. These system weaknesses place at
least xxxxxxxxxxx in annual revenue at risk.

xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx, improve customer

1
    A detail record contains information about an individual parcel xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
Electronic Verification System Rejected Transactions                       CRR-AR-09-006



service, and preserve customer goodwill and the Postal Service brand. A more rigorous
definition of system requirements and testing could enhance system design and data
integrity and the accuracy of information used in the ratemaking process.

On July 10, 2009, the Postal Service revised its procedural guidance to require “Arrival
at Unit” scanning at delivery units on all Priority Mail and package products with Extra
Services. On July 23, 2009, management informed us that guidance is being
developed requiring scanning of all eVS parcels, including non-Confirmation Delivery
parcels, upon arrival at unit. These procedures, when fully implemented, should reduce
the amount of revenue at risk. We will report xxxxxxxxxxx of revenue at risk, improved
customer service, protection of data integrity, and preservation of goodwill and the
Postal Service brand as non-monetary impacts in our Semiannual Report to Congress.

Rejected Transactions

xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx. During our review, management
implemented a report that identifies and tracks rejected detail records. Xxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx. See Appendix B for our detailed
analysis of this topic.

We recommend the Vice President, Business Mail Entry and Payment Technologies,
direct the Program Manager, Business Mail Support, to:

1. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.

Software Requirements Development and Testing

xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
This occurred because the eVS development team did not fully follow Postal Service
guidelines for software development and testing. Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx and customer
service and goodwill branding is placed at risk. See Appendix B for our detailed
analysis of this topic.

We recommend the Manager, Corporate Information Technology Portfolio, direct the
Manager, Sales and Marketing Business Systems Portfolio, to:




                                                       2
Electronic Verification System Rejected Transactions                        CRR-AR-09-006



2. Ensure employees perform software development and system testing in accordance
   with Postal Service guidelines.

3. Implement software changes that correctly validate destination entry rates claimed
   by mailers.

Management’s Comments

Management concurred with our findings and recommendations. xxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx, using a percentage
of revenue rather than a percentage of volume, as the basis for calculating revenue at
risk. They also stated that they are confident their steps to enhance the system and
work with mailers encountering rejected transactions to reconcile accounts would
significantly reduce future risk. Management’s comments, in their entirety, are included
in Appendix C.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s actions should resolve the issues identified in the report.

Although management agreed there is revenue at risk, they believe the risk to be lower
than the xxxxxxxxx stated in the report. We agree that corrective actions, planned or
taken, will reduce the revenue at risk. However, we believe our estimates are
reasonable based on FY 2008 revenue data.

The OIG considers recommendation 1 significant, and therefore requires OIG
concurrence before closing. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Paul Kuennen, Director, Cost,
Revenue and Rates, or me at (703) 248-2100.


    E-Signed by Darrell E. Benjamin, Jr
    VERIFY authenticity with ApproveIt

Darrell Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems

cc: Thomas G. Day
    George W. Wright




                                                       3
Electronic Verification System Rejected Transactions       CRR-AR-09-006



     Charles L. McGann, Jr.
     Robert E. Dixon, Jr.
     Vicki M. Bosch
     Bill Harris




                                                       4
Electronic Verification System Rejected Transactions                                                 CRR-AR-09-006



                              APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The eVS allows high-volume package mailers and package consolidators to document
and pay postage using electronic manifest files. During fiscal year (FY) 2008, eVS
processed 123 million parcels and generated more than $232.3 million in revenue. As
of May 7, 2009, there were 36 approved eVS mailers and three mailers testing the eVS.

The eVS receives electronic files from the mailers via the Postal Service’s Product
Tracking System (PTS). PTS performs business rule validations to ensure mailpieces
meet the criteria for confirmation services. PTS also combines data files from multiple
mailers into a consolidated manifest file and generates a Confirmation, Error, and
Warning (CEW) file for each mailer.2 PTS forwards files containing information about
valid records accepted for processing, as well as records that do not meet all PTS
criteria, to the eVS with error and warning messages.

Files received from the PTS generally consist of many manifests identified xxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxx. The detail records contain information about individual
parcels, such as mail class, destination ZIP Code, postage amount, weight, processing
category, rate and DRIs,3 zone, postal routing barcode, confirmation services,4 and any
discount or surcharge.

xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx. Additional filtering by eVS includes
validating individual detail records to ensure their accuracy. The eVS uses accepted
records to generate electronic postage statements and submits the postage statement
directly to PostalOne!®, where the postage is withdrawn from the mailers’ postage
payment accounts. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxx

The eVS application generates several online reports to provide mailers with information
regarding individual parcels. One recently implemented report shows the status of
individually rejected detail records. The eVS generates other reports using data
collected from eVS barcoded mailing labels scanned during delivery confirmation
services. The scanned data is transmitted to the eVS database to determine whether


2
  Records with edit errors or edit warnings as well as summary information are reported in the CEW file.
3
  One of the determinants used in the calculation of the postage amount charged for eVS parcels.
4
  Extra services available for purchase on parcels.




                                                          5
Electronic Verification System Rejected Transactions                                               CRR-AR-09-006



the parcels are mis-shipped5 or un-manifested.6 Mailers are assessed postage based
on discrepancies between the electronic manifest data and data collected from the
delivery confirmation scans. The eVS calculates applicable adjustments and deducts
postage from mailers’ postage payment accounts.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this audit was to determine whether transactions rejected by the eVS
are corrected and resubmitted for processing. To accomplish our objective, we
reviewed Postal Service policies and procedures related to eVS and software
development and testing. We interviewed key eVS, information technology, and
contractor personnel. We visited two eVS mailers to observe operations and obtain
feedback on the monitoring and reprocessing of rejected eVS transactions.

To determine whether rejected transactions were resubmitted for reprocessing, we
extracted and analyzed data from transaction and log files. xxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx. We used
manual and automated processes to assess the reliability of the computer-generated
data used for our analysis and concluded the data were sufficiently reliable to support
the audit objective.

We conducted this performance audit from December 2008 through August 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We discussed our observations
and conclusions with management officials on July 9, 2009, and included their
comments where appropriate.




5
 Parcels deposited by an eVS mailer at an incorrect entry facility.
6
 Parcels accepted and scanned by the Postal Service for which electronic manifests are not received or successfully
processed.




                                                         6
    Electronic Verification System Rejected Transactions                             CRR-AR-09-006




    PRIOR AUDIT COVERAGE

                       Report               Final Report       Monetary
Report Title           Number                   Date            Impact         Report Results
Security          CRR-AR-08-002          February 12, 2008     None       xxxxxxxxxxxxxxxxxxxxxxxx
Review of the                                                             xxxxxxxxxxxxxxxxxxxxxxxx
Electronic                                                                xxxxxxxxxxxxxxxxxxxxxxxx
Verification                                                              xxxxxxxxxxxxxxxxxxxxxxxx
System                                                                    xxxxxxxxxxxxxxxxxxxxxxxx
                                                                          xxxxxxxxxxxxxxxxxxxxxxxx
                                                                          xxxxxxxxxxxxxxxxxxx.
                                                                          Management agreed to
                                                                          revise guidelines xxxx
                                                                          xxxxxxxxxxxxxxxxxxxxx
                                                                          xxxxxxxxxxxxxxxxxxxxxxx.
Application       CRR-AR-08-003          March 31, 2008        None       The report cited
Controls                                                                  weaknesses in data input
Review of the                                                             validation, sampling,
Electronic                                                                reconciliation, and
Verification                                                              procedures that did not
System                                                                    clearly distinguish data
                                                                          used for parallel testing
                                                                          from production data.
                                                                          Management agreed to
                                                                          implement corrective
                                                                          actions to address the
                                                                          weaknesses, except for the
                                                                          parallel testing of data due
                                                                          to resource limitations.




                                                           7
Electronic Verification System Rejected Transactions                         CRR-AR-09-006



                             APPENDIX B: DETAILED ANALYSIS

Rejected Transactions

xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx. Best practices require that transactions
failing validation should be reported in a suspense file and appropriately followed
through to the remediation of the errors. During our review, management implemented
a suspense file capability for individually rejected detail records and developed
requirements for an interim solution to process detail records associated xxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx will assist the Postal Service in ensuring
it collects the proper postage for all eVS transactions.

System Modifications

Rejected Detail Records

In March 2009, management took corrective action to implement a suspense file
capability for files containing correct xxxxxxxxxxxxxx but incorrect detail records. This
capability provides a Manifest Error Report for mailers to use in researching, correcting,
and resubmitting these files. For records not corrected and resubmitted by the 10th day
of the following month, the Postal Service charges the average price for the parcel’s
mail class based on the manifests submitted by the mailer for the month.

xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

For parcels that have confirmation services, scanning performed during mail processing
will enable tracking and subsequent revenue collection for parcels with rejected records.
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx




                                                       8
Electronic Verification System Rejected Transactions                            CRR-AR-09-006



xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

Management Actions

In June 2009, the Postal Service developed requirements for an interim solution for
tracking detail records rejected xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx, which they plan to
deploy in August 2009. This feature allows the system to retain erroneous data from
the original data file and calculate postage at the rates reported in the file or the mailer’s
average price for that mail class for the month. This feature enhances the Manifest
Error Report to include xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxx. However, the mailer is required to review summaries from this
report and manually trace them to the CEW report to identify detail records that need
correction. The Postal Service has to manually update this report to reflect records
resubmitted by the mailer. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.

Software Requirements Development and Testing

The destination rate validation functionality implemented on March 29, 2009, incorrectly
validated the ZIP Codes of the destination entry facility and DRI for Destination Delivery
Unit (DDU) parcels. This occurred because management developed this functionality
based on insufficient software requirements and the system integration testing was
inadequate. Postal Service policy requires all technology solutions to be developed and
implemented with adherence to the Technology Solution Life Cycle methodology. As
the incorrect implementation resulted in overcharging customers, management
deactivated this feature on April 9, 2009. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx. Additionally,
overcharging mailers placed customer service and goodwill/branding at risk.

The Postal Service intended for this system functionality to validate the ZIP Codes of
the destination entry facility and DRI to ensure mailers claimed the correct rate of the
entry facility. The business rule required validating the destination entry facility and the
DRI based on the entry ZIP Code from the xxxxxxxxxxxxx and the destination ZIP Code
from the detail record for the network distribution center (NDC), the sectional center
facility (SCF), and the DDU. System integration testing used inadequate test plans,
which reported successful test completion without testing all rules. Although validation
for the SCF worked correctly, the NDC discount validation failed because management
did not update the reference tables needed to successfully validate the discount.
Further, the DDU rate validation failed due to insufficient requirements and resulted in
overcharging mailers.




                                                       9
Electronic Verification System Rejected Transactions                                                   CRR-AR-09-006



Between March 29 and April 9, 2009, the Postal Service overcharged mailers
approximately $700,000. On May 29, 2009, the Postal Service reversed all of the DDU
data from that period and re-ran the same data using the expected DDU rates as listed
on the manifests.

On May 9, 2009, management updated the reference tables required for NDC
validation, correcting the errors in the NDC discount validation process. xxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx Accurate destination rate validation
requires referencing the Mail Direction file7 as well as the Address file.8 Management
has not established milestones to re-define and re-implement this feature.




7
  The Mail Direction file contains information to identify alternative locations for drop shipments when mail processing
operations are in more than one facility.
8
  The Address file contains the names, addresses, and telephone numbers of facilities to which mail can be drop
shipped for different entry discounts. This information comes from the Address Management System database.




                                                           10
Electronic Verification System Rejected Transactions        CRR-AR-09-006



                        APPENDIX C: MANAGEMENT’S COMMENTS




                                                       11
Electronic Verification System Rejected Transactions        CRR-AR-09-006




                                                       12
Electronic Verification System Rejected Transactions        CRR-AR-09-006




                                                       13
Electronic Verification System Rejected Transactions        CRR-AR-09-006




                                                       14
